Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PATERNITY ESTABLISHMENT

         Use of Voluntary Paternity
             Acknowledgments




                      JUNE GIBBS BROWN
                       Inspector General

                          APRIL 2000
                         OEI-06-98-00053
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins, Lead Analyst
                   Alan Levine, Program Specialist
Ruth Ann Dorrill, Project Leader
               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                            EXECUTIVE SUMMARY

PURPOSE

To describe State use of voluntary acknowledgments in establishing paternity, outline advantages
of use, and identify barriers to effective use of the voluntary acknowledgment process.

BACKGROUND

Welfare reform legislation requires that States develop a simple civil process for parents to
voluntarily acknowledge paternity, which serves as a conclusive finding of parentage following a
60-day rescission period. These acknowledgments potentially reduce staff time and effort needed
to establish paternity, and may also result in an increased number of paternities established. This
report describes State use of the voluntary paternity acknowledgment process, using information
from mail surveys to all State child support and vital records agencies, as well as mail surveys and
interviews with local child support staff in six focus States. Our purpose is to describe the
acknowledgment forms themselves, explain how States are using voluntary paternity
acknowledgment outside the hospital setting, discuss State practices on the rescission of
acknowledgments, and compare acknowledgment with other methods of establishing paternity.

FINDINGS

All States Offer Acknowledgment Services and Have Implemented Most of the Federal
Provisions Encouraging Acknowledgment, But Only 18 States Have Full Implementation.

All States have created acknowledgment forms which are largely uncomplicated and easy to read,
and all conduct some form of outreach to increase parent awareness and understanding. We
identified 18 States which have implemented all of the primary Federal provisions regarding
acknowledgment, including use of voluntary acknowledgments as binding paternity
establishments, a 60-day administrative rescission period, and creation of a Statewide database of
acknowledgments. Many of the remaining 33 States have highly-developed voluntary
acknowledgment programs, but do not yet practice some aspect of the Federal provisions.

Most States Have Official Rescission Procedures, But Some Rescissions May Be Occurring
Informally, and Use of Both Administrative and Judicial Rescission Methods Appears Erratic.

States report very few rescissions, and are likely to have rescission procedures in place, but we
found that courts and local offices may re-open paternity cases established through voluntary
acknowledgment by ordering genetic testing long after the rescission period has passed. Also,
child support and vital records agencies, as well as parents, sometimes are not notified when
voluntary acknowledgments are revoked within or after the rescission window because States
have no formal notification method.




                                                  i
State and Local Child Support Staff Report Many Advantages to Voluntary Acknowledgment,
But Some May Still Prefer Other Methods of Paternity Establishment.

State child support agencies cite a number of advantages of voluntary acknowledgment over other
methods of paternity establishment, including saving agency time and money. They also report
establishing paternity through acknowledgment sets a more positive tone for future parent and
child relationships, and encourages more consistent payment of support. Nevertheless, local child
support staff report they sometimes prefer to establish paternity using other administrative and
judicial methods, both because they perceive these as less likely to be overturned.

RECOMMENDATIONS

OCSE Should Encourage State Child Support Agencies to Clarify for the Courts the Legal
Standing of Acknowledgments as Conclusive Findings of Paternity.

We found that State and local courts may not accept the legal standing of voluntary
acknowledgments. OCSE should encourage State child support agencies to inform State and
local courts regarding the legality of acknowledgments as conclusive findings of paternity, and
work more closely with State legal entities to ensure adherence to Federal law.

OCSE Should Assist States in Training Local Child Support Staff in the Use of
Acknowledgments, Reinforcing Acknowledgments as Conclusive Findings of Paternity.

We found that some local child support staff did not use voluntary acknowledgments as
conclusive findings of paternity, even when State laws and courts allowed. OCSE should provide
technical assistance to States for instructing local child support staff regarding the legal standing
of acknowledgments, emphasizing practical training on their use in local offices.

OCSE Should Provide Guidelines for States Regarding Circumstances Which May Constitute
Fraud, Duress or Material Mistake of Fact, to Reduce the Number of Acknowledgments
Overturned.

State laws vary regarding the re-opening of paternity cases established through voluntary
acknowledgment. The variation among States appears to rest in their interpretation of what
constitutes “fraud, duress and material mistake of fact.” OCSE should collect information from
States, and use the information gathered to issue guidelines for interpretation of this clause.

OCSE Should Encourage Child Support and Vital Records Agencies to Develop Uniform
Statewide Rescission Processes, Including Methods for Notifying All Interested Parties.

Welfare reform legislation establishes a uniform 60-day rescission period, but does not specify
how rescissions should be processed. We recommend that OCSE encourage States to develop
procedures for handling rescissions, whether administrative or judicial, and that child support and
vital records agencies in each State work together to ensure that such procedures include the
routine transfer of information.


                                                  ii
AGENCY COMMENTS

We appreciate the current initiatives of the Administration for Children and Families (ACF) aimed
at improving State use of voluntary paternity acknowledgments, and ACF’s supportive response
to our recommendations. In our response to agency comments, we reemphasize certain features
of our recommendations deserving of special attention. These include reinforcing the status of
voluntary acknowledgments as binding establishments of paternity, and working with States to
encourage proper use of acknowledgments at the local level.

ACF comments are provided in their entirety in Appendix A.




                                               iii
                  TABLE OF CONTENTS



                                                              PAGE


EXECUTIVE SUMMARY                                                i


INTRODUCTION                                                     1


FINDINGS


     Use of Voluntary Paternity Acknowledgments                  3


     Rescission of Voluntary Paternity Acknowledgments           8


     Barriers to Use of Voluntary Paternity Acknowledgments     10


RECOMMENDATIONS                                                 14


AGENCY COMMENTS                                                 15


ENDNOTES                                                        16


APPENDIX                                                       A-1

                             INTRODUCTION

PURPOSE

To describe State use of voluntary acknowledgments in establishing paternity, outline advantages
of use, and identify barriers to effective use of the voluntary acknowledgment process.

BACKGROUND

Federal Mandate

When children are born to unmarried mothers, paternity establishment is the first step in child
support enforcement. Congress has endorsed the use of binding voluntary paternity
acknowledgments when both parents are in agreement regarding parentage. These
acknowledgments speed the paternity establishment process, reduce staff time and effort needed
to establish paternity, and may also result in an increased number of paternities established.
Federal law dictates that a voluntary paternity acknowledgment creates a conclusive finding of
paternity, and may only be rescinded “within the earlier of 60 days or the date of an administrative
or judicial proceeding relating to the child.”1 Either parent may rescind their acknowledgment of
paternity within this 60-day period, but following that, they may only challenge the
acknowledgment based on grounds of fraud, duress, or material mistake of fact. Both the mother
and putative father must be given notice, both orally and in writing, of the alternatives to, legal
consequences of, and rights and responsibilities arising from the signed acknowledgment.
Additionally, the father’s name may not be added to the birth certificate without a signed
acknowledgment of paternity or issuance of an adjudication of paternity from a court or
appropriate administrative agency.2

State Implementation

In recent years, both Federal and State child support enforcement agencies have invested
considerable resources in creating in-hospital voluntary paternity acknowledgment programs.
State efforts have been focused primarily at birthing hospitals because it is believed that the period
immediately following birth is most conducive to voluntary acknowledgment. The father may be
more likely to be present during the birthing experience than later in the child’s life, and the
excitement of the birth may make parents more readily agree to establish paternity. Parents in all
States are provided with outreach materials promoting the benefits of paternity establishment, and
many States offer assistance in completing voluntary acknowledgment forms. OEI recently
reported that in-hospital paternity acknowledgment programs are largely successful in
encouraging voluntary acknowledgment.3

While initial efforts were concentrated at birthing hospitals, welfare reform legislation also
encourages States to use voluntary acknowledgment in other settings. Consequently, States have
begun to offer voluntary paternity acknowledgment services to parents at child support offices,
vital records offices, and other social service agency settings.4 As these services expand, States


                                          )))))))))))
                                               1
must ensure that uniform procedures are followed, regardless of where acknowledgments are
administered. Because more children are having paternity established through voluntary
acknowledgment, either in the hospital or a social service agency before they enter the IV-D
system, States are focusing not only on providing acknowledgment services, but also on ensuring
accurate storage and retrieval of acknowledgment documentation.

This report discusses the implementation of Federal policy at both the State and local level,
focusing on factors that appear to enhance or impede the use of voluntary paternity
acknowledgments. Our purpose is to describe the voluntary acknowledgment forms themselves,
explain how States are using voluntary paternity acknowledgment outside the hospital setting,
outline barriers to effective use, and compare the benefits of establishing paternity through
voluntary acknowledgment as opposed to other administrative and judicial methods.

METHODOLOGY

Information for this report comes from mail surveys to the primary State vital records office and
child support enforcement office in all 50 States and the District of Columbia (100 percent
response rate). To provide insight on local-level implementation of State policies, we also
surveyed by mail a selection of local child support offices in six focus States: California, Georgia,
Illinois, New Jersey, Texas and Virginia. Offices within these States were selected to provide a
mix of urban, suburban, mid-size and rural locations.5 We received completed surveys from 99
local child support offices, representing an 80 percent response rate. We also conducted on-site
interviews with administrators and front-line staff in four local child support offices, visiting
offices within one or two cities and their surrounding areas in each focus State.6 We also
requested supplementary documentation including copies of the State voluntary paternity
acknowledgment form and public outreach materials.

We purposively selected the focus States by reviewing the following criteria: non-marital birth
rates by State and locality, State Paternity Establishment Percentages (PEP), percentage of child
support cases with support orders, status of voluntary acknowledgment programs, operations and
certification status of automated systems, outstanding program characteristics (innovation,
privatization, etc.), status as State-administered or county-administered, and geographic region.
Our focus States represent a fairly broad spectrum of implementation strategies and experiences.
The selection of focus States does not purport to be representative of the nation. It does,
however, allow for examination of paternity establishment processes under conditions found
throughout the country.7

This study was conducted as part of a larger project on State paternity establishment practices.
Data collection focused primarily on establishment procedures outside birthing hospitals.
Companion reports discuss the role of vital records agencies in paternity establishment efforts, the
use of genetic testing, and other administrative and judicial methods of paternity establishment.

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.



                                          )))))))))))
                                               2
                                          F I N D I N G S

USE OF VOLUNTARY PATERNITY ACKNOWLEDGMENTS

States Have Adapted Their Voluntary Acknowledgment Forms to Include Most of OCSE’s
Required Data Elements.

States must include a minimum set of data elements developed by the Federal Office of Child
Support Enforcement (OCSE) on their voluntary paternity acknowledgment forms. Mandated
data elements were intended to ease interstate use, since States must grant full faith and credit to
all other State acknowledgment forms. Table 1 lists the required data elements, and the number
of States including them on their current voluntary acknowledgment forms. Thirty-eight States
have revised their voluntary paternity acknowledgment forms since the mandatory data elements
were released, but a few report they are not yet using the new version because they don’t want to
waste the earlier forms already printed and in circulation. Most States previously included
required basic information about the parents and child. However, only seven States include the
place where the form was completed. Knowing the place of completion allows child support
agencies to better track voluntary paternity acknowledgment services offered at hospitals and
other entities. Some States which have not added this data element track the place of
employment of the notary as a rough gauge of where particular acknowledgments were signed.
As for requiring parents to sign that they understand their rights and responsibilities, 40 States
simply add this statement to the form so that when the parents sign the acknowledgment they are
also attesting that they understand their rights and responsibilities. Seven States, however, chose
to emphasize this point further by requiring a second signature.8

                       TABLE 1: REQUIRED MINIMUM DATA ELEMENTS IN
                           VOLUNTARY ACKNOWLEDGMENT FORMS

                                      Data Element                                Number of States

 Full Name, Social Security Number and Birthdate of Mother, Father and Child             51

 Addresses of the Mother and Father                                                      51

 Signature Lines for the Mother, Father, and Any Witnesses or Notaries                   51

 Birthplace of the Child                                                                 47

 Explanation of Legal Consequences (sometimes on attached document)                      47

 Statement Indicating Both Parents Understand Their Rights and Responsibilities          47

 Place the Voluntary Acknowledgment Form Was Completed                                   7


Ten State voluntary acknowledgment forms have included space for the signature of the husband
of a mother who is married to someone other than the biological father of the child. This allows
the husband to relinquish his parental rights at the same time the natural father’s paternity is
established. Another ten States have developed a separate form for the husband, typically called


                                              )))))))))))
                                                   3
a Denial of Paternity, which releases the husband from parental responsibility without establishing
paternity for the natural father. In this case, the parents could then complete a voluntary paternity
acknowledgment in order to establish paternity for the natural father.

Voluntary Acknowledgment Forms are Fairly Uncomplicated and Easy to Read.

The language used in State voluntary acknowledgment forms is typically simple and
straightforward, and local office staff in focus States maintain that clients are able to complete
voluntary acknowledgment forms with little assistance. Although staff did voice concern that
parents may not understand the implications of signing, even when provided with oral notification
of rights and responsibilities, the technical completion of the form does not appear to pose
problems.9 However, voluntary acknowledgment forms in 20 States must be completed without
errors or corrections, much like other legally binding documents. Strict adherence to this policy,
particularly when parents have only one form, may pose a barrier.

Some States are more informal about acknowledgment procedures. Two States allow parents to
use a birth certificate instead of a voluntary acknowledgment form, intending to ease
establishment in the hospital. While birth certificates do not conclusively establish paternity, in
these States only perfunctory judicial approval is required, whether parents use a birth certificate
or a voluntary paternity acknowledgment form. Local staff in one of our focus States report that
parents can even write on a plain sheet of paper to acknowledge, as long as it is notarized and
includes the proper information about the parents and child.

Forms May Inhibit Use By Requesting Too Much Information About the Mother and Father.

Local staff in a number of our focus States report concern that acknowledgment forms sometimes
require parents to divulge more information than they are able or willing to provide. Clearly,
States have incentives to obtain as much information as possible about parents. Information about
the mother may be used to confirm her public assistance eligibility or to distribute child support
payments, and information about the father is needed to help locate him and his employer for the
collection of support. However, requesting an excessive amount of information may inhibit
completion of the forms. In addition to requesting information about employers, extended family,
and prior residences, forms in eight States request demographic information such as race, age, and
occupation. With staff access to automated databases, social security numbers of mother and
putative father are often enough for child support staff to easily uncover more information. If this
descriptive information can be retrieved elsewhere, requiring that it be included on the form may
discourage voluntary acknowledgments.

Child Support Agencies Provide Outreach on Acknowledgment, and Parents May Complete
Acknowledgments at Local Child Support Offices as Well as Hospitals and Other Entities.

Child support agencies in nearly all States (49) provide outreach materials to parents on the
availability and use of voluntary acknowledgment forms. In a few States, the child support
agency has a team of paternity coordinators who are tasked only with distributing materials and
conducting staff training on voluntary acknowledgment procedures. Local staff in focus States


                                          )))))))))))
                                               4
report they inform parents about the option of voluntary acknowledgment by discussing it directly
with clients (90 percent), distributing written outreach materials (40 percent), showing videotapes
promoting acknowledgment (17 percent), airing public service announcements (11 percent), and
providing audiotape explanations (3 percent). All local offices in our focus States report parents
may sign and submit voluntary paternity acknowledgments in their office.

About half of State child support agencies (23) currently offer acknowledgment services through
some of their public assistance offices. Parents in 32 States may also voluntarily acknowledge
paternity in all or nearly all local vital records offices. Typical services offered through these
alternative sites include distribution of public outreach materials explaining voluntary
acknowledgment and, to a lesser degree, personal assistance to parents in completing paternity
acknowledgments. However, some States are wary of expanding voluntary acknowledgment
services outside hospitals and child support offices because they fear staff at other entities may not
administer the process correctly or properly forward completed forms for record. In one State
where the voluntary acknowledgment program is run largely by the vital records agency, vital
records staff report they only allow acknowledgments to be completed in hospitals or vital records
offices, in order to “maximize program integrity and lead to less confusion by parents, the courts
and other interested parties.”

State Child Support Agencies Report it is Easy to Access Acknowledgment Information, But
Local Offices Find it is More Difficult to Access Acknowledgments Signed Outside Hospitals.

Child support agencies in 38 States report it is easy or somewhat easy to access information about
acknowledgments, with 13 of these reporting it is very easy. Another seven States report it is
difficult to obtain this information, and the remaining five States remained neutral, describing the
process as neither easy nor difficult. Thirty-nine States report that receiving information on
acknowledgments completed outside the hospital is no more difficult than for those completed in
hospitals. The 12 States indicating that acknowledgments signed outside the hospital are more
difficult to obtain also tend to report experiencing some difficulty in obtaining in-hospital
acknowledgments.

In contrast, local child support offices in the six focus States report it is more difficult for them to
obtain information about voluntary acknowledgments completed outside hospitals. Staff in forty-
eight percent of local child support offices in focus States report that it is more difficult to obtain
information about acknowledgments that were completed in locations other than hospitals. At
least one reason for the difference is that child support workers often develop close working
relations with staff at nearby hospitals and routinely gather paternity information from these
sources. However, caseworkers report more difficulty receiving information about
acknowledgments that occur elsewhere, whether at hospitals outside the area or at alternative
sites. Several respondents expressed hope that enhanced automated systems may improve access
to all acknowledgments, no matter where they are completed.




                                           )))))))))))
                                                5
States Have Implemented Most of the Federal Provisions Encouraging Voluntary
Acknowledgment, But Just 18 States Have Full Implementation.

We identified 18 States which have implemented and practice all of the primary Federal provisions
regarding voluntary acknowledgment programs. These States report Statewide implementation of
their in-hospital program, offer acknowledgment services at child support and vital records
offices, provide parents an administrative 60-day rescission period after which voluntary paternity
acknowledgments are binding in nearly all cases, utilize a Statewide database of all signed
acknowledgments, and allow local child support staff to administratively create child support
orders using only the acknowledgment. While child support agencies in many of the remaining 33
States have highly-developed programs, they have not yet met all the criteria listed above,
typically because they use some degree of court involvement in the process.10

The 18 identified States appear to rely heavily on voluntary acknowledgments to establish
paternity both within and outside the welfare population.11 States in this group also strongly favor
administrative methods for all aspects of child support enforcement. They are likely to locate
State child support agencies within social service administrations, and even tend to use
administrative rather than judicial methods for more complex paternity cases. However, although
these States offer complete acknowledgment services, some staff in local offices still revert to
using similar, but more labor-intensive administrative orders of paternity when fathers sign outside
the hospital.12 An administrator in one of these States argues that Federal regulation only requires
that a simple, civil process be made available, and that their staff use a variety of methods for
establishing paternity as warranted by each case.

Two of these 18 States were included in our focus sample, allowing us to review local office
practices and implementation. Local staff in these two States note the relative ease of establishing
paternity through voluntary acknowledgment. They indicate that access to a Statewide database
is important to their use of previously signed acknowledgments, but they also rely on parents to
bring acknowledgments signed in the hospital to the child support office. More importantly, these
local staff help parents complete voluntary acknowledgments in their offices. When establishing
paternity for a new public assistance case, staff might inform the mother that her case will be
resolved more quickly if she brings the putative father into the office to sign a form. Since parents
need not sign the form together (or even sign the same form in most States), the mother might
deliver or mail the form to the putative father to sign. Some offices in these two focus States also
offer to mail voluntary acknowledgment information to the putative father with a deadline for
action, so that the mother need not directly contact him. This correspondence, as well as the
acknowledgment form itself, may remind the father of his right to request genetic testing prior to
signing. Typically, the voluntary acknowledgment form is completed and attached to
supplementary documents which address the father’s wages and any custody and visitation
agreement.




                                          )))))))))))
                                               6
Child Support Staff Report Voluntary Acknowledgments Save Parents and Staff Time, and
May Encourage Better Parent Relationships and More Consistent Payment of Support.

Voluntary acknowledgment, particularly when completed in the hospital, has unique advantages
over other methods of establishing paternity. Table 2 outlines possible advantages to establishing
paternity through voluntary acknowledgment. Overall, State child support agencies appear more
enthusiastic about voluntary acknowledgment than local child support offices in our six focus
States. State and local respondents do agree that voluntary acknowledgment establishes paternity
more quickly than other methods. However, the other prominent advantages identified by State-
level respondents (convenience for parents, less time invested by parents and child support staff,
and saving agency money) were listed less often by local staff. Interestingly, about half of both
State and local respondents report the father is more likely to consistently pay support if he
establishes paternity through voluntary acknowledgment.

Relative to other methods, local staff identified several other advantages of voluntary
acknowledgment including: fathers who voluntarily acknowledge may be more involved with the
child; the acknowledgment forms collect more information on fathers; clients and staff are more
comfortable with a simpler and less adversarial process; and voluntary acknowledgment may send
the child the positive message that his father wants to be a responsible parent. An added
advantage to at-birth acknowledgments is that the father’s name may be included as part of the
original birth record.

                    TABLE 2: ADVANTAGES OF ESTABLISHING PATERNITY
                        THROUGH VOLUNTARY ACKNOWLEDGMENT

                Advantages                       State CSE                Local Focus CSE
                                                Respondents                 Respondents

 Establishment Occurs More Quickly             94 % (48 States)           89 % (87 Offices)

 More Convenient for Parents                      86 % (44)                  65 % (62)

 Takes Less of Child Support Staff Time           86 % (44)                  61 % (59)

 Less Costly for Child Support Agency             80 % (41)                  56 % (54)

 Promotes Better Parent Relationships             59 % (30)                  46 % (45)

 Fathers Who Acknowledge Are More                 47 % (24)                  45 % (43)
 Likely to Pay




                                          )))))))))))
                                               7
RESCISSION OF VOLUNTARY PATERNITY ACKNOWLEDGMENTS

Forty-five States Have an Official Rescission Procedure in Place, With 18 Using an
Administrative Method, and 21 Using Judicial or Quasi-Judicial Methods of Rescission.

Although most States (45) report creating official procedures for rescission of voluntary paternity
acknowledgments, there is much debate over the relative merit of administrative and judicial
rescission methods. The remaining six States have no formal rescission process or are currently
involved in designing a process. Advocates of administrative methods claim that the intent of the
60-day rescission window is to allow parents a simple process for reversing their action before it
becomes legally binding, which emphasizes the voluntary nature of the acknowledgment itself.
They argue that voluntary acknowledgment is an administrative action, and that it’s reversal
within a brief time period is appropriately administrative as well.

State child support agencies in 18 States report their rescission process is fully administrative.
Most of these States have created a simple rescission form which either parent can complete and
submit to the child support agency within the time frame. A few States also require these parents
to submit proof of a certified letter to the other parent informing them of the action, and a
notarized affirmation from the vital records office that they have requested amendment of the
birth record. The majority of States, however, appear to have no formal method for contacting all
parties. Administrative rescissions in some States do not automatically alter the birth record
because the vital records agency requires a court order to remove the original father’s name.
Some States might claim to have an administrative process, and yet this means only that the
request for the rescission is received by the administering child support office. That office may
then submit an order for genetic testing, and if the father is excluded he must go to court to have
his name removed. Also, some administrative processes require an administrative hearing which
can take as long as getting on the court docket.

Child support agencies in 15 States report they have a fully judicial method for rescission, which
requires the requesting parent to appear in court to change the paternity determination.
Proponents of a judicial method believe it increases the likelihood that all parties are notified, and
also discourages impulsive actions on the part of either parent. Parents in these States typically
must file a petition for rescission with the family court, and are ordered by the judge to submit to
genetic testing to determine parentage. Six States report they have a quasi-administrative
procedure requiring some sort of judicial approval. This procedure may require the parent to
submit a request for rescission which a court clerk may approve without a court appearance.

Regardless of the method used, rescission is valued for the due process protections it potentially
affords mothers and putative fathers. State child support agencies in 25 States and State vital
records agencies in 28 States report that knowing they can rescind the acknowledgment
encourages parents to sign. Of the 33 State vital records agencies responding as to which parent
is more likely to initiate a rescission, ten report the putative father, and four report the mother,
with the remaining nineteen perceiving that parents were equally likely to rescind an
acknowledgment.



                                           )))))))))))
                                                8
Most States Report Very Few Official Rescissions, But More Rescissions May Be Occurring
Informally Through Child Support Offices and Courts.

We reported in our 1997 study of in-hospital acknowledgment programs that the number of
rescissions was very low, and our current data indicates that rescissions are still infrequent.13
Thirty-nine State vital records agencies and 35 State child support agencies report few or no
rescissions. Only two States report handling more than a few rescissions, but still report the
number to be fairly small relative to the large number of signed acknowledgments. The largest
number of rescissions reported by a State was 50 over a three-year period. This same State
reported to OCSE that it processed over 12,000 signed acknowledgments within approximately
the same time period. About half (55 percent) of local offices contacted in focus states report
they have never handled any type of rescission.

Although the number of official rescissions is low, States may only report the few rescissions that
follow formal State procedures. Based on our analysis of State documents and survey responses,
acknowledgments are being revoked after the 60-day window through use of ad hoc methods in
child support offices and courts. These revocations are not reported as rescissions because they
typically occur following the 60-day period under the provision allowing for challenge of the
acknowledgment due to fraud, duress, or material mistake of fact. A strict interpretation of this
phrase suggests that the man cannot merely claim that he was given misinformation from the
mother. However, OCSE has not specified what constitutes fraud, duress, or material mistake of
fact through regulation, and State discretion has resulted in widely varying interpretations.

Child Support and Vital Records Agencies, as Well as Parents, Sometimes are Not Notified
When Voluntary Acknowledgments are Revoked Within or After the Rescission Window.

When an official rescission has taken place, it is doubtful that all interested parties are notified.
State child support agencies in only 21 States report they routinely notify vital records agencies
when rescissions take place, and vital records agencies in only 23 States report they do the same
for child support agencies when rescissions occur at their offices. Vital records agencies in 11
States report they do not receive rescission information unless the parents happen to request an
amendment of the birth record, and most others appear to have no formal method to ensure
notification. Twenty-one State vital records agencies report they change the birth record
automatically when notified of a rescission, while the remaining agencies require additional action
on the part of parents or courts. Child support agencies in only 28 States formally notify the other
parent when a rescission is filed, but respondents in States which do not notify parents claim the
other parent finds out anyway because they may be ordered to submit to genetic testing. Vital
records agencies in only 11 States formally notify the other parent when a rescission is processed
through their office, and notice is typically sent by mail. Of course, when voluntary paternity
acknowledgments are overturned informally by child support staff or courts, notification of all
parties appears even less likely.




                                          )))))))))))
                                               9
BARRIERS TO USE OF VOLUNTARY ACKNOWLEDGMENTS

State and Local Child Support Staff Concerns About the Use of Acknowledgments Relate Less
to the Process Itself Than To Incorrect Implementation by Parents and Staff.

While child support agencies in 22 States express no concerns with the use of voluntary paternity
acknowledgments, the remaining agencies (as well as most State vital records agencies and local
child support offices in focus States) identified a number of potential problems. As shown in
Table 3, the most common issues concern how voluntary acknowledgments are administered
rather than inherent flaws in the process. Some State child support agencies, and about one third
or more local office respondents in focus States, are concerned that staff at hospitals, vital records
offices and alternative sites may administer voluntary acknowledgments incorrectly. While only a
few State child support and vital records agencies lack confidence in the legal standing of
voluntary paternity acknowledgments, local child support staff in forty-two offices report such
concerns. Several caseworkers related experiences in which courts would overturn
acknowledgments after the 60-day rescission period by granting genetic testing to determine
parentage. Some local staff expressed a perception that the legal community in their State had
reservations about any use of voluntary acknowledgments, leading caseworkers to avoid use of
acknowledgments. As one local office reports, “Voluntary acknowledgment would be easier in
the short-term, but with a [court order] at least we know we won’t have to reopen the case
later.”

     TABLE 3: CONCERNS WITH USE OF VOLUNTARY PATERNITY ACKNOWLEDGMENTS

         Concern With Voluntary                 State CSE     Local CSE Focus     State Vital Records
            Acknowledgment                     Respondents      Respondents          Respondents

 No Concerns                                       43 %             19 %                 33 %
                                                (22 States)      (19 Offices)         (17 States)

 Hospitals May Administer Incorrectly             37 %              47 %                 40 %
                                                  (19)              (46)                 (21)

 Alternative Sites May Administer                 24 %              33 %                 27 %
 Incorrectly                                      (12)              (33)                  14

 Parents Should Have First Sought Genetic         24 %              43 %                 13 %
 Testing to be Sure of Parentage                  (12)              (43)                  (7)

 Not Confident of the Legal Standing of the       12 %              43 %                 17 %
 Acknowledgment Document                           (6)              (42)                  (9)

 Parents May Have Been Coerced to Sign            12 %              32 %                 17 %
                                                   (6)              (32)                  (9)

 Vital Records Agency May Administer               6%               31 %                 N/A
 Incorrectly                                       (3)              (31)




                                              )))))))))))
                                                   10
Other concerns voiced by both State and local staff are that custody and visitation matters are not
addressed by voluntary acknowledgment, and that some men may sign the affidavit knowing they
are not the father, as one local office manager describes “out of kindness, pity or foolishness.”
Some local offices we visited report that months or years later, when these fathers may no longer
be in a relationship with the mothers or when required to make child support payments, they may
either request genetic testing or become chronically delinquent payers. At the time of signing,
some of these men may genuinely plan to perform as father throughout the child’s life, but others
may have no such desire. Mothers may encourage this type of acknowledgment to help maintain
their eligibility for public assistance benefits or to keep the real father away from the child.

A few State agencies and about a third of local office respondents are concerned that some people
who sign acknowledgments may be coerced. Local staff suggest this may occur in hospitals, at
the time of birth, when relatives of the new-born may make threats or otherwise coerce one or
both parties into signing an acknowledgment. As shown in Table 3, some State and local
respondents believe it would be better for parties to confirm paternity through genetic testing than
to voluntary acknowledge.

Child Support Staff May Simply Prefer to Establish Paternity Using Other Administrative and
Judicial Methods, Believing They Create a More Solid Foundation for Collection of Support.

Even when States make voluntary acknowledgment procedures accessible, child support staff
may choose to use other administrative or judicial methods of paternity establishment. Further,
when staff perceive advantages to other methods of paternity establishment, they may use these
methods even when it requires discarding a valid voluntary acknowledgment. Staff in four of our
six focus States report they may not encourage voluntary acknowledgment, choosing instead to
assist parents in completing an administrative order of paternity which may include paternity
establishment, determination of the award amount, creation of the child support order, and
possibly even resolution of custody and visitation issues, effectively completing their casework in
one meeting. Or, if uncertainty exists about the identity of the father, establishment may involve
genetic testing and a subsequent ruling of paternity.

On the other hand, child support staff may encourage parents to use voluntary acknowledgment,
in their office if the parents are living together at the time the mother applies for public assistance.
One worker describes this type of case, “If it is an intact family and the father is with the mother,
then we will have him sign a [voluntary acknowledgment] form. We have been getting quite a
few of these kinds of cases lately. In the case of an intact family, the form alone is enough to
establish paternity. For the record, we open a case and then close it right away, as long as he is
in the home with the custodial parent and they are both together.”

States With Highly Judicial Processes May Not Use Voluntary Acknowledgments or Other
Administrative Methods Because the Support Order Must Be Created Judicially Anyway.

About half of States (23) still require some sort of judicial involvement for establishing paternity,
regardless of whether the case is contested or not. In these States, staff may see little benefit to



                                           )))))))))))
                                                11
using voluntary acknowledgments because child support orders must still be approved by the
courts. When paternity is established judicially a support order is typically entered
simultaneously. A local administrator in one of these States reports, “all of our orders go
through the courts, even voluntary acknowledgments. We don’t bother to hunt down an
acknowledgment or have the parents come in to sign one. It just adds an unnecessary step to the
process.” While workers in some States may simply perceive that it is easier to use their tried and
true judicial processes for paternity and child support establishments, child support agencies in at
least five States lack the authority to finalize child support orders administratively.

Both Courts and Child Support Agencies May Not Consider Voluntary Acknowledgments
Binding in Contested Cases, and Order Genetic Testing Long After the Rescission Period.

Not all States have adopted the Federal mandate for a 60-day rescission period followed by a
conclusive finding of paternity. Critics of the window argue that placing a limit on the time within
which a parent may rescind violates due process laws in some States. In other States, automated
systems allow child support orders to be created very quickly, sometimes the same day as the
acknowledgment, effectively eliminating the time period for legal rescission.14 Even States which
have adopted the 60-day rescission rule sometimes revoke acknowledgments later. Procedures
vary widely by State, but may be called “re-openings” rather than rescissions, and require parents
only to petition the court, appear at a hearing, and submit to genetic testing, possibly without any
evidence of fraud, duress or material mistake of fact. If the father is excluded through genetic
testing, he may need to file yet another form to formally revoke his parental rights and obligations.

Courts are not alone in revoking voluntary acknowledgments long after the rescission period.
Local child support staff in focus States report offering to “set aside” prior acknowledgments in
order to give clients the time to complete genetic tests. If the father doesn’t submit to testing
within a certain time period (typically two weeks), the child support office may begin steps to
establish paternity by default. Staff in other offices don’t even consider the form binding to begin
with, and use it instead merely as a source of information about the putative father. They report
that the extensive information included in the acknowledgment is very useful to caseworkers in
locating the putative father and creating the actual support order. Child support agencies in 22
States affirm that they recommend their local offices prioritize their caseload by first working the
cases with the most information.

Some judges and child support staff may not accept acknowledgments as binding because they
genuinely believe parents should submit to genetic testing in nearly every case. In our study of
State genetic testing practices, we report that 40 State child support agencies believe genetic
testing should be used when any uncertainty about paternity exists on the part of any of the
parties, and another six go further to say it should be used in all cases. One local administrator in
a focus State argues that, “Testing in all cases eliminates later motions for testing after
arrearages have accumulated.” It is not uncommon for a judge to order genetic testing when a
voluntary acknowledgment already exists. Until a court order exists, the judge may not consider
that the case has a legal finding of paternity. If the case is never contested, the administrative
ruling will stand. But if a father decides months or even years later that he was unsure and no



                                          )))))))))))
                                               12
longer wants to make payments, he may contest the original acknowledgment. As previously
mentioned, staff report that it is common for a father to deny his original acknowledgment at the
time he is first required to pay support, which may also be at the end of his relationship with the
mother.




                                          )))))))))))
                                               13
                      RECOMMENDATIONS

OCSE Should Encourage State Child Support Agencies to Clarify for the Courts the Legal
Standing of Acknowledgments as Conclusive Findings of Paternity.

Although welfare reform encourages States to use administrative methods to establish paternity
and create child support orders, many States still rely on their courts to varying degrees. We
found that State and local courts may not accept the legal standing of voluntary
acknowledgments. OCSE should encourage State child support agencies to inform State and
local courts regarding the legality of acknowledgments as conclusive findings of paternity, and
work more closely with State legal entities to ensure adherence to Federal law.

OCSE Should Assist States in Training Local Child Support Staff in the Use of Voluntary
Acknowledgments, Reinforcing Acknowledgments as Binding Establishments of Paternity.

We found that some local child support staff did not use voluntary acknowledgments as
conclusive findings of paternity, even when State laws and courts allowed. OCSE should provide
technical assistance to States for instructing local child support staff regarding the legal standing
of paternity acknowledgments as binding establishments of paternity, emphasizing practical
training on use of acknowledgments in establishing paternity. We found that local staff may
ignore signed acknowledgments, choosing to pursue paternity establishment through other
methods. Because voluntary acknowledgment can potentially save valuable staff time, local staff
should be further educated on the legal implications of acknowledgment and encouraged to use it
when possible as part of standard office procedure.

OCSE Should Provide Guidelines for States Regarding Circumstances Which May Constitute
Fraud, Duress or Material Mistake of Fact, to Reduce the Number of Acknowledgments
Overturned.

State laws vary regarding the re-opening of paternity cases established through voluntary
acknowledgment. The variation among States appears to rest in their interpretation of what
constitutes “fraud, duress and material mistake of fact.” OCSE should collect information from
States, and use the information gathered through their investigation to issue guidelines for
interpretation of this clause.

OCSE Should Encourage Child Support and Vital Records Agencies to Develop Uniform
Statewide Rescission Processes, Including Methods for Notifying All Interested Parties.

Welfare reform legislation establishes a uniform 60-day rescission period, but does not specify
how rescissions should be processed. States possess unique characteristics which may cause them
to favor administrative or judicial revocation. We recommend that OCSE encourage States to
develop procedures for handling rescissions, and that child support and vital records agencies in
each State work together to develop a procedure for the rescission of acknowledgments,
including the routine transfer of rescission information to agencies, courts and parents.


                                          )))))))))))
                                               14
AGENCY COMMENTS

We appreciate the current initiatives of the Administration for Children and Families (ACF) aimed
at improving State use of voluntary paternity acknowledgments, and ACF’s supportive response
to our recommendations. Here we wish to reemphasize certain features of our recommendations
deserving of special attention as OCSE proceeds to implement them.

Regarding our recommendation that OCSE encourage States to clarify for the courts the legal
standing of acknowledgments, ACF advises that they will inform States of this recommendation
and the findings upon which it is based. On this issue, we wish to emphasize that the treatment of
an acknowledgment as a conclusive finding of paternity is a clear legal requirement. We hope that
this will be emphasized in any materials which ACF sends to the States on this matter, and we
encourage ACF to work closely with States to help ensure adherence to the Federal law.

Regarding our recommendation that OCSE assist States in training local staff on the use and
meaning of acknowledgments, ACF requests that we provide information about States having
difficulty in order to provide guidance. We will provide this information. ACF also states its
plans to continue distribution of a Computer-Based Training program for use by local office staff.
We viewed this program, and believe it provides valuable information on procedures, recent
legislation, and reasons for establishing paternity, but is insufficient for reinforcing the concept of
acknowledgments as binding establishments of paternity. We encourage ACF to further explore
ways to assist States in promoting proper use of acknowledgments, and in discouraging local staff
and court dismissal of existing acknowledgments.

Regarding our recommendation that OCSE provide guidance on circumstances which may
constitute fraud, duress and material mistake of fact, ACF states that they will investigate this
issue, sharing effective practices and offering guidance to States experiencing problems. The
importance of this issue has caused us to modify our original recommendation to encourage ACF
to use the information gathered to issue guidelines for interpreting this clause. ACF requested
information on States which have misinterpreted this clause, which we will provide. We continue
to believe the confusion over interpretation is more widespread than can be addressed by targeting
States identified as experiencing problems. Our research shows that the principle problems of
nonadherence or misinterpretation of the law are more likely to stem from caseworkers and courts
at the local level, rather than just with State policy. In addition to issuing guidelines, we
encourage ACF to assist States in addressing this issue at the local level.

In response to our final recommendation that OCSE assist child support and vital records
agencies in developing a Statewide rescission process, including a method for notifying all
interested parties, ACF responds that they will inform the States of our finding and promote
effective methods of cooperating with vital records agencies. We wish to emphasize that these
rescission processes should include uniform methods for notifying all interested parties, including
courts and parents as well as child support and vital records agencies.

The agency also made a few technical comments which we have addressed in the body of the
report. ACF comments are provided in their entirety in Appendix A.


                                           )))))))))))
                                                15
                                    E N D N O T E S

1. Section 466(a)(5)(C) of the act as added by section 331 of Pub. L. 104-193 and amended by
section 5539 of Pub. L. 105-33.

2. Social Security Act, Section 466(a)(5)(D)(i)(II).

3. For more information, please refer to In-Hospital Voluntary Paternity Acknowledgment
Program: State Agency and Birthing Hospital Implementation, 1997, OEI 06-95-00160.

4. Federal regulation requires State vital records agencies to offer paternity acknowledgment
services, and States may choose to offer services at local vital records offices and other entities,
such as Head Start programs, public health clinics, WIC centers, and schools. We discuss the use
of State and local vital records offices in our companion report entitled Paternity Establishment:
The Role of Vital Records Agencies, OEI-06-98-00055, and the use of other entities in our
companion report entitled Paternity Establishment: Use of Alternative Sites, OEI-06-98-00052,
1999.

5. These State and local offices were not randomly selected and their responses should not be
interpreted as representative of all local offices in the nation or even within their own State.

6. The availability of OIG agency support staff to assist in conducting interviews played a role in
selection of these interview sites.

7. The six focus States comprise 31 percent of total U.S. births, 32 percent of total U.S. non-
marital births, 32 percent of total U.S. IV-D cases, 26 percent of total U.S. IV-D cases with child
support orders, and 27 percent of total U.S. IV-D cases with child support collections. The
collective non-marital birthrate of the focus States is almost identical to the national average (32.0
percent vs. 32.4 percent), with somewhat lower, but comparable, rates for the percentage of IV-D
cases with support orders (47.3 percent vs. 57.3 percent), and the percentage of cases actually
collecting support (16.4 percent vs. 19.4 percent). Comparison data comes from the OCSE 21st
Annual Report to Congress and the National Center for Health Statistics.

8. For more information on the substance of parental rights and responsibilities, refer to our
companion report entitled Paternity Establishment: Notification of Parental Rights and
Responsibilities, OEI-06-98-00051, 1999.

9. For more information on staff views regarding parents’ understanding of rights and
responsibilities, see ibid OEI 06-98-00051, 1999.

10. For more information on the level of judicial involvement in State paternity establishment
practices, see our companion report Paternity Establishment: Administrative and Judicial
Methods, OEI 06-98-00050, 2000.

11. Although this study does not attempt to compare State paternity establishment percentages
(PEP) with methods used, a quick look at PEP rates for these 18 States indicates a slightly higher

                                          )))))))))))
                                               16
overall rate of establishment as compared to the average of all States.

12. For more information about other administrative methods of paternity establishment, see our
companion report on paternity establishment methods, ibid, OEI-06-98-00050, 2000.

13. Ibid, OEI-06-95-00160, 1997.

14. Michigan is operating under a Federal waiver which allows them to ignore the 60-day
mandate while they experiment with various recission methods.




                                          )))))))))))
                                               17
APPENDIX A





  )))))))))))
      A-1

)))))))))))
    A-2

)))))))))))
    A-3

)))))))))))
    A-4

